November 28, 2008

STEVEN J. FORTE
VICE PRESIDENT, NEW YORK METRO AREA OPERATIONS

SUBJECT: Audit Report – Fiscal Year 2008 New York Metro Area SmartPay
         Purchase Card Program (Report Number FF-AR-09-028)

This report presents the results of our audit of SmartPay Purchase Card purchases by
personnel in the New York Metro Area (Project Number 08BD006FF005). This audit is
part of the Fiscal Year 2008 Financial Installation Audits we announced on August 14,
2007. Appendix A presents additional information about this audit.

Conclusion

Generally, cardholders supported their SmartPay purchases and complied with U.S.
Postal Service policies and procedures. We examined 336 judgmentally selected
transactions1 (totaling $463,391) and found issues regarding 54 transactions
(16 percent) totaling $97,450. We identified five expenses where cardholders did not
document the business need and 23 purchases where cardholders did not follow proper
contracting rules. We consider these transactions (totaling $63,000) to be
unrecoverable unsupported questioned costs.2 Additionally, we identified 26 charges
(totaling $34,451) that a cardholder had not verified during reconciliation. We consider
the $34,451 to be disbursements at risk.3 We will report the monetary and
non-monetary impacts in our Semiannual Report to Congress. Appendix B presents our
calculation of monetary and non-monetary impacts.

Procedures for Justifying Purchases Needed Improvement

Cardholders did not always justify the business need for purchases. When employees
make purchases without the required written justification, there is an increased risk the
Postal Service could incur unnecessary expenses.




1
  Appendix A presents our rationale for selecting transactions.
2
  Unsupported costs are costs that we question because of missing or incomplete documentation or personnel not
following required procedures.
3
  Disbursements made by employees who did not always follow proper Postal Service internal controls and
processes.
Fiscal Year 2008 New York Metro Area SmartPay                                                      FF-AR-09-028
 Purchase Card Program


Specifically:

    •   One cardholder did not always justify the business need for providing meals.
        The cardholder made three meal purchases totaling $4,652 for meals provided
        after meetings were adjourned. Managers should schedule business meetings to
        preclude overlapping meal periods or clearly state in the purchase request the
        business need for continuing meetings through meal periods.4 This occurred
        because the cardholder assumed that eBuy meal requests with appropriate
        approvals met Postal Service policy.

    •   A cardholder made two purchases for 16 professional baseball playoff tickets
        totaling $5,628 without documenting the business need for the purchase in the
        eBuy request. However, the requestor informed us that he bought the tickets to
        distribute to customers in appreciation for their business. The requestor could
        not provide information on how many tickets went to specific customers, as he
        did not keep records of who received the tickets. Postal Service policy requires
        purchase requests in eBuy to have justifications explaining the specific reason for
        the purchase5 but does not require tracking items such as professional sports
        tickets. However, a Government Accountability Office (GAO) report6 on agency
        purchase card programs noted that sensitive items and items that are easily
        pilfered require additional scrutiny to prevent unauthorized use or loss.

We recommend the Vice President, New York Metro Area Operations:

1. Reiterate to cardholders the requirement to document a business need for providing
   meals when submitting a purchase request on all meal expenditures.

Management’s Comments

Management’s written response stated they did not agree with the finding. However,
during subsequent discussions, management stated they agreed with this finding and
recommendation and disagreed only with the finding related to purchase procedures.
Management re-issued administrative guidelines, dated November 12, 2008, to New
York Metro Area managers reinforcing Postal Service requirements associated with
meals and refreshments. Management did not comment on the monetary benefits. We
have included management’s comments, in their entirety, in Appendix C.




4
  Management Instruction, FM-640-2001-4, Payment for Meals and Refreshments, September 24, 2001. This
management instruction was replaced by FM-640-2008-1, Expenses for Internal and External Events, effective
September 10, 2008. The new management instruction did not change the policy requirements cited in our report.
5
  eBuy Requisitions-Payments-Credit Card Statement Reconciliation SOP, April 1, 2008.
6
  Government-Wide Purchase Cards – Actions Needed to Strengthen Internal Controls to Reduce Fraud, Improper
and Abusive Purchases (Report Number GAO-08-333, dated March 2008).




                                                       2
Fiscal Year 2008 New York Metro Area SmartPay                                                    FF-AR-09-028
 Purchase Card Program



We recommend the Vice President, New York Metro Area Operations:

2. Establish local policies to track sensitive and easy to pilfer items not covered under
   current Postal Service directives.

Management’s Comments

 Management’s written response stated they did not agree with the finding. However,
during subsequent discussions, management stated they agreed with this finding and
recommendation and disagreed only with the finding related to purchase procedures.
Management implemented a policy, effective November 12, 2008, requiring the
Manager, Administrative Support Services, to be the sole purchaser of any item worth
$50 or more and identified as pilferable. The purchase will be recorded in a Pilferable
Items Log and maintained for 2 years.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to recommendations 1 and 2, and the corrective actions should
resolve the issues identified in the report. Although management did not agree or
disagree with the monetary benefits discussed, we will report them as questioned costs
in our Semiannual Report to Congress since we identified instances where employees
did not follow required procedures.

Purchase Procedures Needed Improvement

A cardholder made 23 separate purchases totaling $52,720 from a single vendor
without establishing a contract.7 Postal Service policy requires formal competitive
contracts for purchases exceeding $10,000.8 The cardholder and approving official
stated that it was an oversight because they overlooked the total dollar volume of
purchases with this vendor. When cardholders do not follow procurement policies, the
Postal Service has reduced assurance that it has received the best value for the
products and services purchased and that purchases meet statutory requirements.

We are not making a recommendation because management has ceased making
SmartPay purchases with the vendor and has initiated competitive contract procedures
for the questioned purchases.




7
 The cardholder made these purchases for video production services over a 24-month period.
8
 Handbook AS-709, Credit Card Policies and Procedures for Local Buying, Sections 332.21f and 333.6, October
2003 (updated with Postal Bulletin revisions through October 26, 2006).




                                                       3
Fiscal Year 2008 New York Metro Area SmartPay                                                          FF-AR-09-028
 Purchase Card Program


Management’s Comments

Management did not agree with the finding or monetary benefit and believed the finding
should not be included in the audit report because they initiated immediate corrective
action.

Evaluation of Management’s Comments

As noted by management, the finding reflects a condition identified and discussed with
them during the audit. Consequently, the OIG will retain the finding in the report and
claim the monetary benefits, as is customary. However, we commend management for
their quick and effective actions taken.

Monthly Reconciliation Procedures Needed Improvement

A cardholder did not verify during monthly reconciliations 26 E-Z Pass9 charges totaling
$34,451 to their SmartPay Purchase card over a 12-month period. Postal Service
policy requires cardholders to review cardholder statements and verify transactions are
valid and for official use.10 The cardholder did not verify the monthly E-Z Pass charges
xxxxxxx xxx xxxx xxx xxxxxxxxx xxxxx xxxxxxx xxxxxxxxxxxxx xxxx xxx xxxxxx xxxxxxx
xxxxxxxx xxxxxx xxxxxxx xxxxxxxxxxx, which did not include any guidance on
verification of charges. When cardholders do not follow reconciliation procedures, there
is an increased risk that unauthorized or inaccurate transactions could go undetected.

We recommend the Vice President, New York Metro Area Operations:

3. Direct SmartPay cardholders to verify their statement transactions are valid and
   official.

Management’s Comments

Management’s written response stated they did not agree with the finding. However,
during subsequent discussions, management stated they agreed with this finding and
recommendation and disagreed only with the finding related to purchase procedures.
On November 12, 2008, management re-issued administrative guidelines to the Area
staff addressing the subject E-Z Pass tags. Management did not comment on the
non-monetary benefits.




9
  E-Z Pass uses an electronic tag placed on a vehicle windshield that automatically reduces the tag holder’s pre-paid
account when the vehicle passes through specially equipped toll lanes.
10
   Handbook AS-709, Section 315.




                                                          4
Fiscal Year 2008 New York Metro Area SmartPay                                FF-AR-09-028
 Purchase Card Program


Evaluation of Management’s Comments

The OIG considers management’s comments responsive to recommendation 3, and the
corrective actions should resolve the issues identified in the report. Although
management did not agree or disagree with the non-monetary benefits discussed, we
will report them as disbursements at risk in our Semiannual Report to Congress since
we identified instances where employees did not follow proper Postal Service
processes.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact
Kevin Ellenberger, Director, Field Financial – East, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc: Susan M. Brownell
    Lynn Malcolm
    Vincent H. DeVito, Jr.
    Stephen J. Nickerson
    Susan A. Witt
    Joseph A. Branco
    Terence P. Hayes
    Katherine S. Banks




                                                5
Fiscal Year 2008 New York Metro Area SmartPay                                                FF-AR-09-028
 Purchase Card Program


                         APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Since November 1991, the Postal Service has used the government-wide Commercial
Credit Card Program administered by the General Services Administration. The current
contractor is U.S. Bank, Minneapolis, Minnesota, and the card company is VISA®. The
Postal Service calls the program the SmartPay Purchase Card Program and Supply
Management and Finance co-sponsor it. The Postal Service pays no administrative
fees for the service U.S. Bank provides and earns refunds based on the aggregate
volume of Postal Service transactions. Until recently, the Postal Service referred to the
purchase card as the International Merchant Purchase Authorization Card (IMPAC).
This was a registered U.S. Bank trademark name, but the bank no longer uses it.

When eBuy or other consolidated Finance-approved payment processes are not an
option, the purchase card is the primary delegated local buying authority (the authority
to buy and pay for day-to-day operational needs). Generally, a single purchase card
transaction may not be greater than $10,000.

Cardholders, approving officials, and program coordinators must follow the purchasing
guidelines for approved expenditures the Postal Service set in Handbook AS-709 and
various manuals, handbooks, management instructions, and locally issued guidance.
This guidance requires cardholders to maintain documentation including approved
purchasing requests, sales and credit drafts and receipts, and delivery documentation.
In addition, guidance issued January 4, 2008, requires cardholders to maintain
documentation supporting the timely review of monthly statements by cardholders and
approving officials.11

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to determine whether SmartPay Purchase Card Program
purchases were supported and complied with Postal Service policies and procedures. To
accomplish this, we selected all transactions made using the IMPAC-Report Builder
from the Accounting Data Mart for the New York Metro Area’s finance number. This
approach resulted in a universe of 744 SmartPay Purchase Card purchase transactions
totaling $656,445. Our transactions included only those of cardholders assigned to the
New York Metro Area. We selected the sample of area transactions based on risk
factors such as type of purchase (for example, meals and gift cards) and vendors.
Specifically, we judgmentally selected transactions that were either over $9,000,
restricted, made on the weekend, or involved pilferable items. Using these risk factors,
we selected 336 transactions totaling $463,391 made from July 2007 through July 2008
by five cardholders.


11
  Officer Memorandum of Policy GSA Smart Pay Purchase Card Reconciliation Process Time Change,
January 4, 2008.




                                                    6
 Fiscal Year 2008 New York Metro Area SmartPay                                               FF-AR-09-028
  Purchase Card Program


 We conducted this financial audit from July through November 2008 in accordance with
 generally accepted government auditing standards and included such tests of internal
 controls as we considered necessary under the circumstances. Those standards
 require that we plan and perform the audit to obtain sufficient, appropriate evidence to
 provide a reasonable basis for our finding and conclusions based on our audit objective.
 We believe the evidence obtained provides a reasonable basis for our finding and
 conclusions based on our audit objective. We discussed our observations and
 conclusions with management on October 30, 2008, and included their comments
 where appropriate.

 We relied on data obtained from the Postal Service’s Enterprise Data Warehouse
 Accounting Data Mart and performed specific internal control and transaction tests on
 this system’s data, including tracing selected purchase transactions to supporting
 documentation. We used Postal Service instructions, manuals, policies, and
 procedures as criteria to evaluate internal controls and data reliability. Finally, we
 interviewed supervisors and employees and observed operations.

 PRIOR AUDIT COVERAGE

                                            Final                       Non-
                             Report        Report          Monetary   Monetary
      Report Title           Number         Date            Impact     Impact          Report Results
Fiscal Year 2008           FF-AR-09-001   10/22/2008       $36,263    $13,481    Cardholders made purchases
Northeast Area SmartPay                                                          without documenting the
Purchase Card Program                                                            business necessity for
                                                                                 working meals, and
                                                                                 cardholders and approving
                                                                                 officials did not follow
                                                                                 monthly reconciliation
                                                                                 procedures.
Fiscal Year 2008 Eastern   FF-AR-09-002   10/21/2008       $26,745     $9,826    Cardholders made purchases
Area SmartPay Purchase                                                           from unauthorized vendors
Card Program                                                                     and made purchases without
                                                                                 documenting the business
                                                                                 necessity for working meals.
                                                                                 eBuy authority was not
                                                                                 properly delegated and
                                                                                 purchases were not always
                                                                                 supported by receipts.
                                                                                 Cardholders and approving
                                                                                 officials did not follow
                                                                                 monthly reconciliation
                                                                                 procedures.




                                                       7
 Fiscal Year 2008 New York Metro Area SmartPay                                              FF-AR-09-028
  Purchase Card Program




Fiscal Year 2008 Great     FF-AR-08-287   9/26/2008       $38,412   $37,808   Cardholders made purchases
Lakes Area SmartPay                                                           without documenting the
Purchase Card Program                                                         business necessity for
                                                                              working meals, and
                                                                              cardholders and approving
                                                                              officials did not follow
                                                                              monthly reconciliation
                                                                              procedures. Finally,
                                                                              cardholders did not have
                                                                              completed SmartPay Credit
                                                                              Card Program Cardholder
                                                                              Accountability
                                                                              Acknowledgment forms on
                                                                              file.
Fiscal Year 2008           FF-AR-08-286   9/25/2008       $57,712    N/A      Cardholders made purchases
Western Area SmartPay                                                         without documenting the
Purchase Card Program                                                         business necessity for
                                                                              working meals and made
                                                                              purchases from a vendor not
                                                                              listed on the national contract
                                                                              list.
Fiscal Year 2008 Pacific   FF-AR-08-281   9/12/2008       $20,215   $3,360    Cardholder purchases: did
Area SmartPay Purchase                                                        not include documentation
Card Program                                                                  supporting the business
                                                                              necessity for working meals,
                                                                              included payments for state
                                                                              or local sales taxes, and did
                                                                              not document non-cash
                                                                              award transactions in the
                                                                              eAwards system. Further,
                                                                              cardholders and approving
                                                                              officials did not follow
                                                                              monthly reconciliation
                                                                              procedures.
Fiscal Year 2008           FF-AR-08-279   9/8/2008         N/A       N/A      We did not identify any
Southeast Area                                                                control and compliance
SmartPay Purchase Card                                                        issues with the Southeast
Program                                                                       Area’s SmartPay Purchase
                                                                              Card Program. Purchases
                                                                              were made in accordance
                                                                              with Postal Service
                                                                              procurement policies.
Fiscal Year 2008 Capital   FF-AR-08-270   8/22/2008        N/A       N/A      Cardholders and approving
Metro Area SmartPay                                                           officials did not follow
Purchase Card Program                                                         monthly reconciliation
                                                                              procedures.


 The reports identified various internal control and compliance issues such as
 unsupported and unauthorized purchases. Further, as stated in the above table, we
 identified a common issue related to reconciliation procedures, which we also found in
 this audit.




                                                      8
Fiscal Year 2008 New York Metro Area SmartPay                                 FF-AR-09-028
 Purchase Card Program


       APPENDIX B: MONETARY AND NON-MONETARY IMPACT SUMMARY

         Monetary Impact – Unrecoverable Unsupported Questioned Costs

            Number of
           Transactions                      Description                Amount
                3               Meal purchases not justified               $4,652
                2               Purchase of professional baseball           5,628
                                playoff tickets without justification
                  23            Purchases with a single vendor             52,720
                                without a competitive contract
                  28            TOTAL                                     $63,000

                       Non-Monetary Impact – Disbursements at Risk

            Number of
           Transactions                   Description                   Amount
                26              E-Z Pass charges not verified             $34,451




                                                 9
Fiscal Year 2008 New York Metro Area SmartPay              FF-AR-09-028
 Purchase Card Program


                       APPENDIX C: MANAGEMENT’S COMMENTS




                                                10
Fiscal Year 2008 New York Metro Area SmartPay        FF-AR-09-028
 Purchase Card Program




                                                11
Fiscal Year 2008 New York Metro Area SmartPay        FF-AR-09-028
 Purchase Card Program




                                                12
Fiscal Year 2008 New York Metro Area SmartPay        FF-AR-09-028
 Purchase Card Program




                                                13
Fiscal Year 2008 New York Metro Area SmartPay        FF-AR-09-028
 Purchase Card Program




                                                14
Fiscal Year 2008 New York Metro Area SmartPay        FF-AR-09-028
 Purchase Card Program




                                                15
